     J        - J <    . * 5                                                                                                          I
-                                                                                                                                     :I
kL                                                                                                                                    I

                                                           NATIONAL SCIENCE FOUNDATION                              /I
     $@!                                                    OFFICE OF INSPECTOR GENERAL                                               ,I
                                                              OFFICE OF INVESTIGATIONS
     z                                                                                                                                 i
                                                                                                                                       I
     40                                             CLOSEOUT MEMORANDUM                                          I
          '/rv o                                                                                                                       I  I

                                                                                                                                          I
                                                                                                                                          I
    Case Number: I02090023                                                                                 Page 1 of 2
                                                                                                                                           ~
             We received an allegation that a high-level NSF employee1authored and edited publications
             under her Independent Research and Development ("IR/D") agreement without acknowledging
             NSF support. It was further alleged that the employee had relied on an uncompensated 'NSF
             support staff membe? to type the publications.

             With regard to the first allegation, we reviewed the NSF policies regarding acknowledgkrnent of
             NSF support and determined that no such policies existed for IR/D plans. We also revikwed the
             high-employee's I R D agreement and confirmed that it also did not address the issue.

             We conducted a review of publications of permanent NSF employees with IIUD plans!,l This
             review indicated that half of the employees either provided NSF acknowledgement or identified
             NSF as their mailing address, while the other half used the address of another institution. We
             then interviewed five NSF permanent employees who acknowledged NSF support differently.
             All interviewees stated that a NSF policy setting forth specific language would be beneficial.
                                                                                                      1
             Accordingly, we closed our investigation into this allegation and recommended in a memo to the
             agency that NSF develop guidance on this issue for IIUD participants!

             Our memo to NSF detailed the results of our investigation and recommended NSF devqlop a
             policy describing how permanent NSF employees should acknowledge NSF support in their
             IR/D-related publications. According to our memo, this policy should include specific guidance
             on the use of: 1) NSF's address for contact information; 2) acknowledgments for NSF support;
             and 3) disclaimers regarding NSF support.
                                                                                                                I1
             With regard to the second allegation, we spoke to a representative of the Office of Government
                                                                                                                                  '
             Ethics and confiied that support staff can assist employees with IR/D plans but that assistance
             cannot interfere with other official duties. We then reviewed the position description of the
             support staff member and interviewed her supervisor.5We were unable to determine whether the
             use of the staff member was inappropriate because the staff member's duties in connection with


             ' Footnote Redacted.
             2
                                                                                                                /I
              Footnote Redacted.
             3
              At the time of this investigation, 108 NSF employees had active IR/D plans. Twentynine of these employees were
             permanent.
              Footnote Redacted.                                                                                 1
             'Footnote Redacted.


                                    Agent                    Attorney                  Supervisor                        AIGI

         Sign / date
                                                                                                                1
                                                                                                              OIG Form 2 (2102)
;c




 $@.                                                    NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                                                               I(


 .
 z
     4
                                                           OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM
         ON o

                                                                                               It
Case Number: I02090023                                                                     Page 2 of 2

                                                                                                I1


           the IRID publications were commingled with other official duties. We also determinedithat the
           staff member had refused compensation or compensatory time for her work in excess of the 8.5-
           hour workday.6 Therefore, we closed our investigation into this allegation.
                                                                                                11
           Accordingly, this case is closed.

                                                                                                I

                                                                                                i


                                                                                                    !




                                                                                                 I

                                                                                                    I

                                                                                                    1


                                                                                                    I/




                                                                                                     /I


                                                                                                     I




            An 8.5-hour workday refers to 8 hours of work and one halaour of lunch.                  11


                                                                                                        b
